<!■

i

Certificate of Proof of Service

No. 19-

Glen Plourde,
Petitioner
v.
Ashley Poulin,
Respondent

As required by Supreme Court Rule 29.5(c), I certify that three copies of the
petition for a writ of certiorari have been served upon all listed respondents
within the petition for a writ of certiorari.
Service to Melissa Martin was executed Monday September 30 2019 by USPS
Priority Mail, at the following address pursuant to Supreme Court Rule 29.3.
Melissa Martin
88 Federal Street
Portland, Maine 04101
207-774-8211 ext. 1218
USPS Tracking Number: 9114 9011 2308 6519 8374 79
Service to Maine State Supreme Court Chief Justice Saufley was executed
Monday September 30 2019 by USPS Priority Mail, at the following address
pursuant to Supreme Court Rule 29.3.
The Maine State Supreme Court
c/o Chief Justice Saufley
205 Newbury Street
Portland, Maine 04101
207-822-4146
USPS Tracking Number: 9114 9011 2308 6519 8374 93
Service to The State of Maine was executed Monday September 30 2019 by
USPS Priority Mail, at the following address pursuant to Sr
Rule 29.3.

OCT 3 - 2019
1

OFFICE OF THE CLERK
SUPREME COURT. U.S.

I\

Maine State Attorney General’s Office
c/o Maine State Attorney General Aaron M. Frey
6 State House Station
Augusta, Maine 04333
207-626-8800
USPS Tracking Number: 9114 9011 2308 6519 8370 42
Service to The United States Attorney General, The Federal Bureau of
Investigation, The Central Intelligence Agency, The Department of Justice,
and The Office of the Director of National Intelligence was executed Monday
September 30 2019 by USPS Priority Mail, pursuant to Supreme Court Rule
29.3 and was made upon the Solicitor General of The United States pursuant
to Rule 29.4(a).
Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave. N. W.
Washington, DC 20530-0001
202-514-2203
USPS Tracking Number: 9114 9011 2308 6519 8371 65
Furthermore, additional service to The United States Attorney General, The
Federal Bureau of Investigation, The Central Intelligence Agency, The
Department of Justice, and The Office of the Director of National Intelligence
was executed Monday September 30 2019 by USPS Priority Mail, pursuant to
Supreme Court Rule 29.3 and 29.4(a) as the Petitioner has a reasonable
belief these agencies or agents acting on their behalf are authorized to appear
before The Honorable United States Supreme Court on their own behalf.

The United States Attorney General
c/o U.S. Attorney General William Barr
950 Pennsylvania Avenue NW
Washington, D.C. 20530
202-514-2000
USPS Tracking Number: 9114 9011 2308 6519 8370 66

2

The Federal Bureau of Investigation
Office of The General Counsel
J. Edgar Hoover Building
935 Pennsylvania Avenue NW
Washington, D.C. 20535
202-514-2000
USPS Tracking Number: 9114 9011 2308 6519 8371 41
The Central Intelligence Agency
c/o Office of Inspector General
Office of Public Affairs
Washington, D.C. 20505
www.cia.gov/offices-of-cia/inspector-general No Phone Listed
USPS Tracking Number: 9114 9011 2308 6519 8370 80
The Department of Justice
c/o Inspector General Michael E. Horowitz
950 Pennsylvania Avenue NW
Washington, D.C. 20530
202-514-2000
USPS Tracking Number: 9114 9011 2308 6519 8371 27
The Office of Director of National Intelligence
c/o Director of Intelligence Joseph Maguire
Washington, D.C. 20511
703-733-8600
USPS Tracking Number: 9114 9011 2308 6519 8371 03

I declare under penalty of perjury that the foregoing is true and accurate.
Executed on September 30, 2019

Glen Plourde

3

